la
Appendix A
STATE OF MINNESOTA , IN SUPREME COURT
A18-1574
Per curiam
Original Jurisdiction
Took no part, Anderson, J.
Filed: May 22, 2019
In re Petition for
Disciplinary Action
Office of Appellate Courts
against Wendy Alison Nora,
a Minnesota Attorney,
Registration No. 0165906.
Susan M. Humiston, Director, Nicole S. Frank,
Assistant Director, Office of Lawyers Professional
Responsibility, Saint Paul, Minnesota, for
petitioner.
Wendy Alison Nora, Minneapolis, Minnesota, pro
se.

SYLLABUS
The attorney-discipline proceedings
conducted in Wisconsin were fundamentally fair
and consistent with due process.
An indefinite suspension with no right to
petition for reinstatement for 1 year is not unjust
or substantially different from the discipline
warranted in Minnesota for knowingly making a
false statement of material fact to a tribunal, and
for filing three frivolous lawsuits to harass or

2a
maliciously injure another.
Suspended.
Considered and decided without oral
argument.
OPINION
PER CURIAM.
This case involves the question of whether
we should impose reciprocal discipline on
respondent Wendy Alison Nora. The Director of the
Office of Lawyers Professional Responsibility
(Director) petitioned to impose reciprocal discipline
in Minnesota after Nora was suspended from the
practice of law in Wisconsin for 1 year, In re Nora
(Nora Wis.), 909 N.W.2d 155 (Wis. 2018), cert.
, 139 S. Ct. 609 (2018). We
denied,
U.S.
conclude that Wisconsin's disciplinary proceedings
were fundamentally fair and that the discipline
imposed by the Wisconsin Supreme Court was
neither unjust nor substantially different from the
discipline that would have been imposed if the
proceeding had been filed in Minnesota. We
therefore indefinitely suspend Nora from the
practice of law in Minnesota with no right to
petition for reinstatement for 1 year.
FACTS
Nora was admitted to practice law in
Wisconsin in 1975 and was licensed to practice in

3a
Minnesota in 1985. Nora Wis., 909 N.W.2d at 157.
Nora has previously been disciplined four times in
Minnesota for professional misconduct: three
private admonitions, and one public discipline. In
1988, she was admonished for failing to deposit
funds into a trust account in violation of Minn. R.
Prof. Conduct 1.15(a); she was admonished twice in
1990, once for practicing law while suspended in
violation of Minn. R. Prof. Conduct 5.5(a), and once
for incompetence and representing a client despite
a conflict of interest in violation of Minn. R. Prof.
Conduct 1.1 and 1.7.
In 1990, we suspended Nora indefinitely,
with no right to petition for reinstatement for 30
days, for failing to adequately investigate, making
misrepresentations (although the referee concluded
that she lacked a dishonest or selfish motive),
bringing frivolous claims, including litigation that
was brought as a delay tactic, and transferring
assets in an attempt to impede collection, in
violation of Minn. R. Prof. Conduct 1.1, 3.1, 8.4(c),
and 8.4(d). In re Nora, 450 N.W.2d 328, 328-30
(Minn. 1990). We reinstated Nora in 2007 and
placed her on supervised probation for 2 years. In
re Nora, 725 N.W.2d 745, 746 (Minn. 2007) (order).
The Wisconsin disciplinary proceedings at issue
involve Nora's professional misconduct in defending
against the foreclosure of her Wisconsin residential
property, after she stopped paying the mortgage
that she had secured from Aegis Mortgage

4a
Corporation (Aegis).1 See Nora v. Residential
Funding Co., LLC, 543 F. App'x 601 (7th Cir.
2013); Nora Wis., 909 N.W.2d at 158.
The law firm of Gray and Associates, S.C.
filed the foreclosure action on behalf of its client,
Residential Funding Corporation (RFC), a related
entity of GMAC Mortgage Group LLC. Nora
vigorously opposed the foreclosure, arguing that
RFC did not have standing to seek foreclosure
because the assignment of her mortgage to RFC
was allegedly fraudulent and designed to avoid the
effect of Aegis' pending bankruptcy. Nora, 543 F.
App'x at 601.
In July 2009, D.P.—an attorney at the law
firm of Bass & Moglowsky, S.C.—filed a motion for
summary judgment on the issue of the foreclosure
of the mortgage. In August 2009, Nora and RFC
discussed a possible "Foreclosure Repayment
Agreement" (the Agreement) that RFC had offered
to Nora. On August 23, 2009, Nora executed a copy
of the Agreement but also modified a number of
material terms.
On August 25, 2009, D.P. informed Nora, via
a 4:20 p.m. email, that RFC had rejected her
counteroffer and that "no settlement offer existed."
1 Unless otherwise indicated, the facts set forth below
are taken from the Wisconsin Supreme Court's opinion
in Nora Wis., 909 N.W.2d at 158-62.

5a
The next morning, Nora faxed a letter and a copy of
the Agreement to Judge J.C., who was presiding
over the foreclosure action. The letter said that as a
result of the Agreement, the proceedings in the
foreclosure action " 'are stayed.' " Her letter implied
that, even if the Agreement was not in effect, the
proceedings must be stayed because an agreement
was imminent.
On September 21, 2009, Judge J.C. denied
Nora's request for oral argument on RFC's
summary judgment motion, but the judge extended
her time to file a response to the motion until
October 1, 2009. Nora did not file a response.
Instead, 3 days before her time to respond expired,
she filed a personal bankruptcy petition, which
stayed the foreclosure proceedings.
About 3 months later, when the bankruptcy
stay was lifted, Nora's time to respond to the
summary judgment motion again began to run. She
did not file a response. D.P. notified both Judge
J.C. and Nora in writing that Nora's time to file a
response had expired and stated that Nora's failure
to respond to the summary judgment motion meant
that the court should treat the motion as
unopposed. Shortly thereafter, Nora filed several
motions and what she labeled as a "verified
response" to RFC's summary judgment motion.
On February 9, 2010, Judge J.C. granted RFC's
summary judgment motion, allowing RFC's
foreclosure on Nora's residential property. Judge
J.C. also struck Nora's "verified response" as

6a
untimely and lacking arguments and supporting
affidavits; Judge J.C. characterized the response as
a " 'mixture of argument, motions, and allegations
of fact.' "
Two weeks later, Nora filed a request in the
Wisconsin Circuit Court seeking accommodations,
including by re-litigating the summary judgment
motion, based on an alleged disability. She also
requested that the court appoint a guardian ad
litem for her. On March 29, 2010, Judge J.C.
denied Nora's requests to reconsider his decision
granting summary judgment to RFC and for the
appointment of a guardian ad litem. Nora sought
recusal of Judge J.C. and reconsideration of her
guardian ad litem request. Judge J.C. denied her
motions for recusal and reconsideration.
On November 15, 2010-2 weeks before the
scheduled sheriff's sale of her Wisconsin residential
property—Nora sued Judge J.C. personally in the
United States District Court for the Western
District of Wisconsin, alleging violations of the
Americans with Disabilities Act (ADA), 42 U.S.C.
§§ 12101-213 (2012). Nora requested several forms
of relief, including the removal of Judge J.C. from
the foreclosure action and vacation of his summary
judgment order. Within 1 week of suing him, Nora
filed a motion to disqualify Judge J.C. from the
foreclosure action because he had become an
adverse party to Nora in a lawsuit. In March 2011,
Nora dismissed the federal action against Judge
J.C.

7a
On November 29, 2010—the day before the
sheriff s sale of her Wisconsin residential
property—Nora filed a complaint in the United
States District Court for the Western District of
Wisconsin against opposing counsel in her
foreclosure action, alleging, in part, that opposing
counsel had violated the federal Racketeer
Influenced and Corrupt Organizations Act (RICO),
18 U.S.C. §§ 1961-68 (2012), by creating a
fraudulent assignment of her mortgage and note to
RFC, and for bringing the foreclosure action while
knowing of the fraudulent assignment. See Nora v.
Residential Funding Co., LLC, No. 10-CV-748WMC, 2012 WL 12995759 (W.D. Wis. Sept. 30,
2012). The proceedings continued for nearly 2
years. The federal district court eventually
dismissed Nora's claim as barred by the RookerFeldman doctrine.2 Nora appealed, and the Seventh
Circuit Court of Appeals affirmed. Nora, 543 F.
App'x at 601.
Several months after the federal district
court dismissed Nora's RICO complaint as barred
2 The Rooker-Feldman doctrine prohibits federal
district courts from exercising subject-matter
jurisdiction over claims seeking relief that would, in
essence, vacate a state court judgment, because only the
United States Supreme Court may review such
judgments. See Exxon Mobil Corp. v. Saudi Basic Indus.
Corp., 544 U.S. 280, 291-92 (2005); D.C. Ct. of Appeals
v. Feldman, 460 U.S. 462 (1983); Rooker v. Fidelity Tr.
Co., 263 U.S. 413 (1923).

8a
by the Rooker-Feldman doctrine, Nora filed an
adversary proceeding against the same defendants
in the United States Bankruptcy Court for the
Southern District of New York. Nora's allegations
In March 2013, the Wisconsin Office of
were nearly identical to those that she asserted in
the prior action. Nora dismissed the adversary
proceeding as part of the settlement agreement
with the defendants.
In March 2013, the Wisconsin Office of
Lawyer Regulation (OLR) filed a disciplinary
complaint against Nora, which was amended in
December 2013 to include a claim related to the
bankruptcy court adversarial proceeding. Counts 1,
3, and 4 of OLR's amended complaint alleged that
Nora's claims in the ADA, RICO, and bankruptcy
matters violated Wis. Sup. Ct. R. 20:3.1(a).3 Count
2 of the amended complaint alleged that Nora's
facsimile informing the court that a settlement was
3 This rule prohibits a lawyer from "knowingly
advanc[ing] a claim or defense that is unwarranted
under existing law, except that the lawyer may advance
such claim or defense if it can be supported by good
faith argument for an extension, modification or
reversal of existing law" or from "fil[ing] a suit [or]
assert[ing] a position . . . when the lawyer knows . . .
that such an action would serve merely to harass or
maliciously injury another." Wis. Sup. Ct. R.
20:3.1(a)(1), (3). It is similar to Minn. R. Prof. Conduct
3.1.

9a
imminent and that the proceedings in her
foreclosure action should be stayed violated Wis.
Sup. Ct. R. 20:3.3(a)(1).4
OLR moved for summary judgment on Count
2. After hearing oral argument spanning 2 days in
November 2014 and receiving briefing from the
parties, the referee granted summary judgment in
favor of OLR because Nora had admitted, either in
her answer to OLR's amended complaint or during
oral argument on OLR's summary judgment
motion, all of the allegations underlying Count 2.
On the remaining counts, the referee held a
4-day evidentiary hearing in April 2016 and
received pre- and post-hearing briefing from the
parties. In January 2017, the referee made factual
findings and recommendations. She found that
Nora lacked a good-faith basis for pursuing her
ADA action against Judge J.C. and her RICO
action and bankruptcy adversary proceeding
against opposing counsel. Regarding the ADA
action, the referee found that Nora had not
requested an accommodation before Judge J.C.
ruled on the summary judgment motion, that she
had no need for accommodation when she filed the
4 This rule prohibits a lawyer from "mak[ing] a false
statement of fact or law to a tribunal or fail[ing] to
correct a false statement of material fact or law
previously made to the tribunal by the lawyer." Wis.
Sup. Ct. R. 20:3.3(a)(1). It is identical to Minn. R. Prof.
Conduct 3.3(a)(1).

10a
ADA action, and that she filed the ADA action in
an attempt to obstruct her foreclosure case.
Concerning both the RICO suit and the bankruptcy
adversary proceeding, the referee found that, based
on Nora's 40 years as an attorney and her
comments during the summary-judgment hearing
before the district court, Nora understood the
Rooker-Feldman doctrine before filing both of those
actions. The referee also found that Nora had
pursued all three actions when she knew they
would serve merely to harass. The referee
concluded that OLR had proven each count of
misconduct and recommended that Nora be
suspended from the practice of law for 1 year.
Nora appealed. The Wisconsin Supreme
Court concluded that the referee's factual findings
were not clearly erroneous and that those findings
supported the legal conclusion that Nora had
committed misconduct. The court concluded that
Nora should be suspended for 1 year. Id. Nora
sought reconsideration and moved to amend the
Wisconsin Supreme Court's order imposing
discipline. The Wisconsin Supreme Court denied
reconsideration but modified its decision by
deleting a parenthetical from its discussion of our
prior suspension of Nora in 1990. See Wis. Office of
Lawyer Regulation v. Nora, No. 2013AP653-D,
Order at 2 (Wis. filed June 12, 2018). Nora
petitioned the United States Supreme Court for a
writ of certiorari, which was denied. Nora v. Wis.
Office of Lawyer Regulation,
U.S.
, 139 S. Ct.
609 (2018), reh'g denied,
U.S.
, 139 S. Ct.

11a
1243 (2019).
The Director filed a petition for disciplinary
action against Nora, seeking reciprocal discipline in
Minnesota. After Nora filed a response, we ordered
the parties to file memoranda addressing whether
reciprocal discipline is warranted and the reasons
for their views. We granted Nora's motion to file a
reply brief.
Nora argues that reciprocal discipline should
not be imposed. She contends that we should not
give the Wisconsin findings preclusive effect
because those proceedings were not fair and
violated her right to due process. She asks us to
refer this matter to a referee to hold "a limited
evidentiary hearing as an opportunity to show"
that she did not violate any of the Wisconsin Rules
of Professional Conduct. The Director argues that
we should give preclusive effect to the Wisconsin
findings and that the imposition of reciprocal
discipline is appropriate.
ANALYSIS
When a lawyer licensed to practice law in
Minnesota is disciplined in another jurisdiction, we
may, without further proceedings, "impose the
identical discipline unless it appears that discipline
procedures in the other jurisdiction were unfair, or
the imposition of the same discipline would be
unjust or substantially different from discipline
warranted in Minnesota." Rule 12(d), Rules on

12a
Lawyers Professional Responsibility (RLPR).
Unless we determine otherwise, "a final
adjudication in another jurisdiction that a lawyer
had committed certain misconduct shall establish
conclusively the misconduct for purposes of
disciplinary proceedings in Minnesota." Id.
I.
We must first consider whether Wisconsin's
disciplinary procedures were fair. Wisconsin's
disciplinary procedures were fair to Nora "if they
`were consistent with [the principles of]
fundamental fairness and due process.' "In re
Fahrenholtz, 896 N.W.2d 845, 847 (Minn. 2017)
(quoting In re Schmidt, 586 N.W.2d 774, 775
(Minn. 1998)). We "review the underlying record to
see if the attorney received notice of the proceedings and the allegations against him, and had the
opportunity to respond to those allegations and
offer evidence of mitigating circumstances." In re
Overboe, 867 N.W.2d 482, 486 (Minn. 2015). "We
have consistently held that when the attorney is
given notice of the hearing and an opportunity to
respond to the allegations, the proceedings are
fair." Id.
Nora first argues that the Wisconsin
proceedings were not fair because she was denied
notice of the charge of misconduct regarding
making a false statement of fact to a tribunal. As
support, she relies on In re Ruffalo, 390 U.S. 544
(1968). Nora's reliance on Ruffalo is misplaced.

13a
In Ruffalo, the United States Court of
Appeals for the Sixth Circuit disbarred Ruffalo
after he was disbarred by the Ohio Supreme Court.
In re Ruffalo, 370 F.2d 447, 454 (6th Cir. 1966).
The Sixth Circuit based its decision on a charge of
misconduct in the Ohio proceedings that was added
on the final day of the discipline hearing, after
Ruffalo and his employee had testified. See id. at
453-54. The Supreme Court reversed the Sixth
Circuit's reciprocal discipline, holding that the Ohio
proceedings violated due process because Ruffalo
was not given "fair notice as to the reach" of the
charges against him before the hearing began.
Ruffalo, 390 U.S. at 552. Instead, the hearing
"bec[a]me a trap when, after [it] [was] underway,
the charges [were] amended on the basis of testimony of the accused," who could be "given no opportunity to expunge the earlier statements and start
afresh." Id. at 551.
In the Wisconsin disciplinary proceedings,
OLR amended its complaint to reflect Nora's
pursuit of a second frivolous claim against opposing
counsel, this time in federal bankruptcy court—not
because of Nora's statements in the disciplinary
action. In addition, more than 10 months elapsed
between the date that OLR filed its amended
complaint and the date of the hearing on OLR's
motion for summary judgment on the charge for
making a false statement of fact to a tribunal. As a
result, Nora was afforded extensive notice of the

14a
misconduct allegations against her.5
Next, Nora argues that she was denied due
process because she was not given a full
opportunity to be heard. Specifically, Nora argues
that she was denied due process because she was
not given the opportunity to extend the final day of
the 4-day evidentiary hearing on Counts 1, 3, and 4
beyond 5:00 p.m. On the first day of the hearing,
Nora moved for a continuance so that the hearing
could be conducted in excess of the allotted 4-day
period (which had been scheduled months prior).
Nora provided several reasons for this motion,
including, among other things, her intent to mount
a new defense of regulatory capture—disclosed for
the first time that morning. The referee denied
Nora's request as untimely and, on the fourth day
of the hearing, reiterated that Nora had been given
adequate notice of the time limitations for the
hearing. Before the hearing ended on the fourth
day, the referee entered into the record 50
additional exhibits that Nora sought to introduce.
Nora provides no authority supporting her
contention that due process entitles her to an
5 Nora suggests that in its decision, "[t] he Wisconsin
Supreme Court amended the charge" regarding her
false statement of fact to a tribunal. We have reviewed
both the amended complaint and the Wisconsin
Supreme Court opinion. Nora's claim that the
Wisconsin Supreme Court allegedly amended this
charge is not supported by the record.

15a
opportunity to be heard at a hearing for an
undefined and unlimited period of time. We
conclude that Nora was given the opportunity to be
heard and the opportunity to present evidence of
good character and mitigation and to mount a
vigorous defense,6 as evidenced by the 2,900-plus
pages of documents Nora filed with us, representing a small portion of the record in the Wisconsin
proceedings. Disciplinary proceedings spanning a
5-year period of time that included an evidentiary
hearing lasting 4 days, oral argument on OLR's
summary judgment motion spanning 2 days, and
briefing and oral argument before the Wisconsin
Supreme Court provided Nora an ample
opportunity to be heard.
Nora also contends that the Wisconsin
proceedings were unfair for other reasons. First,
6 Nora's defense included, among other things: one
answer; one amended answer; several motions to
dismiss; two motions to disqualify the referee; one
"proposed amended complaint" styled as a motion; two
motions for an interlocutory appeal; one motion for
sanctions; an attempt to subpoena the testimony of
D.P.; one notice of stay after Nora filed for bankruptcy;
allegations that OLR committed fraud on the court;
several other miscellaneous motions; submission of
numerous binders of exhibits; several motions for an
extension of time to file briefing; one motion for a
mistrial; one objection to the denial of her motion for a
mistrial; one "corrected objection" to the denial of her
motion for a mistrial; and one "clarification" of her
objection to the denial of her motion for a mistrial.

16a
she asserts, she was punished for exercising her
First Amendment petition rights. We rejected this
argument in In re Graham, 453 N.W.2d 313 (Minn.
1990). In Graham, an attorney filed a complaint of
judicial misconduct against a federal magistrate
judge, moved for the magistrate's recusal, and
stated under oath and in a sworn affidavit that he
had knowledge of a conspiracy between the
magistrate judge, the district court judge, a legal
officer, and a lawyer to fix the outcome of a federal
case in which Graham was counsel of record. See
id. at 315. A referee determined that Graham's
allegations were false and frivolous, lacked any
reasonable basis, and were made in reckless
disregard of their truth or falsity. See id. at 319.
Graham argued that he could not be disciplined
"because the statements were petitions for redress
of grievances," and what Graham said in them
were "absolutely privileged under the [F]irst
[A]mendment," under which "he enjoy[ed] absolute
immunity" from discipline. Id. at 319. We held that
attorneys, although generally protected from
discipline for their exercise of First Amendment
rights, may still be subject to discipline "[w]hen
[the] attorney abuses that right." Id. at 321; see
also In re Williams, 414 N.W.2d 394, 397 (Minn.
1987). This is such a case.
Nora's remaining arguments concern the
merits of the misconduct claims against her, none
of which persuaded the referee or the Wisconsin

17a
Supreme Court.7 We decline to entertain Nora's
attempt to re-litigate the Wisconsin disciplinary
proceedings. Instead, we hold that the Wisconsin
proceedings were fair because Nora was given
notice of the proceedings and the allegations
against her and had the opportunity to respond to
those allegations and offer evidence of mitigation.
Accordingly, the Wisconsin Supreme Court's
findings and conclusions of misconduct "establish
conclusively" Nora's "misconduct for purposes of
[this] disciplinary proceeding[]." Rule 12(d), RLPR.
II.
Having concluded that the proceedings were
fair, we next turn to whether the discipline imposed
in Wisconsin is unjust or substantially different
from the discipline warranted in Minnesota. Id. We
have imposed indefinite suspensions with no right
to petition for 1 year, or more, in cases of similar
misconduct involving harassing and frivolous
litigation and dishonest statements. See, e.g., In re
Selmer, 866 N.W.2d 893, 900-01 (Minn. 2015)
(imposing a 1-year suspension for misconduct
7 Nora argues that the elements of res judicata or
collateral estoppel must be satisfied before we may
consider reciprocal discipline under Rule 12(d), RLPR.
This argument is meritless. Rule 12(d), RLPR, rather
than the common law doctrines of collateral estoppel
and res judicata, is the governing standard for when we
will give another jurisdiction's determination that an
attorney committed misconduct conclusive effect.

18a
involving a pattern of frivolous and harassing
litigation, abuse of the discovery process, and
failure to acknowledge wrongdoing); In re Butler,
868 N.W.2d 243, 247-52 (Minn. 2015) (imposing a
2-year suspension for a pattern of pursuing
frivolous litigation on behalf of homeowners,
fraudulently joining defendants, refiling cases that
had been previously dismissed, and failing to pay
sanctions); In re Ulanowski, 800 N.W.2d 785,
788-800 (Minn. 2011) (imposing a 1-year
suspension for misconduct including filing frivolous
claims, making misrepresentations to a court, and
harassing opposing counsel). Given the similarity of
Nora's misconduct here and her misconduct that
led to her prior suspension, her disciplinary history,
and the gravity of the conduct at issue, the 1-year
suspension imposed in Wisconsin is neither unjust
nor substantially different than the discipline
warranted in Minnesota.
Accordingly, we order that:
Respondent Wendy Alison Nora is
indefinitely suspended from the practice of law,
effective 14 days from the date of this opinion, with
no right to petition for reinstatement for 1 year
from the effective date of the suspension.
Respondent shall comply with the
requirements of Rule 26, RLPR (requiring notice of
suspension to clients, opposing counsel, and
tribunals), and shall pay $900 in costs, plus
disbursements, pursuant to Rule 24, RLPR.

19a
3. If respondent seeks reinstatement, she
must comply with the requirements of Rule
18(a)—(d), RLPR. Reinstatement is conditioned on
successful completion of the written examination
required for admission to the practice of law by the
State Board of Law Examiners on the subject of
professional responsibility and satisfaction of
continuing legal education requirements. See Rule
18(e)—(f), RLPR.
Suspended.
ANDERSON, J., took no part in the
consideration or decision of this case.

20a
Appendix B
STATE OF MINNESOTA
IN SUPREME COURT
A18-1574

FILED
June 28, 2019
Office of Appellate Courts
In re Petition for Disciplinary Action
Against Wendy Alison Nora, a Minnesota Attorney,
Registration No. 0165906.
ORDER
Based upon all the files, records, and
proceedings herein,
IT IS HEREBY ORDERED that the petition
of Wendy Alison Nora for rehearing pursuant to
Rule 15(c), Rules on Lawyers Professional
Responsibility, be, and the same is, denied.
See also Minn. R. Civ. App. P. 140.01.
Dated: June 28, 2019
BY THE COURT:
/s/ David L. Lillehaug
Associate Justice
ANDERSON, J., took no part in the consideration
or decision of this case.

